                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Projected Emission Reductions
                     Overstated and Buy American
                     Requirements Not Met Under
                     EPA Award to the Tennessee
                     Department of Transportation

                     Report No. 13-R-0321                    July 19, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Angela Bennett
                                                    Glen Chabotar
                                                    John Flynn




Abbreviations

CFR                    Code of Federal Regulations
DERA                   Diesel Emissions Reduction Act
EPA                    U.S. Environmental Protection Agency
FAQs                   Frequently Asked Questions
FFR                    Federal Financial Report
FY                     Fiscal Year
NOx                    Nitrogen Oxide
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
Recovery Act           American Recovery and Reinvestment Act of 2009
RFA                    Request for Applications
TDOT                   Tennessee Department of Transportation
TSE                    Truck Stop Electrification


Cover photo: Truck stop electrification equipment at the North Forty Truck Stop in
             Holladay, Tennessee. (EPA OIG photo)




Hotline
To report fraud, waste, or abuse, contact us through one of the following methods:

email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
fax:       202-566-2599                                       Mailcode 2431T
online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-R-0321
                                                                                                           July 19, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Projected Emission Reductions Overstated and
The U.S. Environmental              Buy American Requirements Not Met Under EPA Award
Protection Agency (EPA),            to the Tennessee Department of Transportation
Office of Inspector General,
reviewed the contracts               What We Found
awarded by the Tennessee
Department of Transportation        TDOT followed most applicable laws, regulations, and terms and conditions of
(TDOT) under Cooperative            the cooperative agreement in the procurement and monitoring of contracts for the
Agreement No. 95425709.             TSE facilities—with the exception of the Buy American requirements of the
The agreement, funded by the        Recovery Act. TDOT did not determine whether trusses used in the construction
Diesel Emissions Reduction          of TSE facilities by one contractor qualify as substantial transformation as defined
Act (DERA) under the                in 2 CFR §176.160. This occurred because subsequent to the contract awards,
American Recovery and               EPA incorrectly determined that the Buy American requirements did not apply to
Reinvestment Act of 2009            the project. Consequently, there is no assurance that all iron, steel, or
(Recovery Act), provided for        manufactured goods incorporated into the project were manufactured or
the installation of truck stop      substantially transformed in the United States, as required by Section 1605 of the
electrification (TSE) facilities.   Recovery Act.
DERA provides funds for EPA
programs to achieve significant     TDOT complied with the cooperative agreement requirements and satisfied
reductions in diesel emissions.     Region 4 requirements for projecting results. However, TDOT overstated its
The purpose of the audit was to     results. This occurred because TDOT utilized significantly overestimated usage
determine whether TDOT              assumptions in its projections rather than current usage. As a result, TDOT does
complied with procurement           not have reasonable assurance that the TSE project will achieve projected
requirements, monitored             emissions reductions, and the expected environmental results and human health
contract performance,               benefits. Quarterly reporting of diesel emissions reductions by the DERA
achieved the objectives of the      program may also be overstated.
cooperative agreement, and
accurately reported the results      Recommendations
to EPA.
                                    We recommend that EPA disallow and recover Recovery Act funds of
This report addresses the           $1,623,049, unless TDOT can certify that the project fully complied with Buy
following EPA Goal or               American requirements. For those items that TDOT cannot certify, EPA should
Cross-Cutting Strategy:             follow applicable regulations to resolve the noncompliance.

 Taking action on climate          For TDOT’s potential overstatement of project results, we recommend that EPA
  change and improving              review TDOT’s assumptions used to calculate projected results. If needed, EPA
  air quality.                      should work with TDOT to develop a more accurate projection of project results.
                                    EPA should also review any recalculated results, in accordance with agency
                                    policy, to determine whether TDOT achieved the objectives of the cooperative
For further information, contact
                                    agreement. Further, EPA should adjust the DERA program reporting of TDOT
our Office of Congressional and     project results to reflect any recalculated results.
Public Affairs at (202) 566-2391.
                                    EPA and TDOT disagreed with recommendations pertaining to the Buy American
The full report is at:              requirements. EPA and TDOT agreed with the recommendation related to project
www.epa.gov/oig/reports/2013/       results and are working to use post-project usage data to produce updated
20130719-13-R-0321.pdf              information.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                              July 19, 2013

MEMORANDUM

SUBJECT:       Projected Emission Reductions Overstated and Buy American
               Requirements Not Met Under EPA Award to the Tennessee
               Department of Transportation
               Report No. 13-R-0321

FROM:          Arthur A. Elkins Jr.

TO:            Stan Meiburg, Acting Regional Administrator
               Region 4

This is our report on the subject examination conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position. In accordance with established
audit-resolution procedures, EPA managers will make final determinations on matters in this report.

We performed this examination as part of our responsibility under the American Recovery and
Reinvestment Act of 2009. The purpose of our examination was to determine whether the Tennessee
Department of Transportation followed all applicable laws, regulations, and terms and conditions of the
cooperative agreement in the procurement and monitoring of truck stop electrification facility contracts;
achieved the objectives of the cooperative agreement; and accurately reported the results to EPA.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us with your
proposed management decision for resolution of the findings contained in this report before you
formally complete resolution with the recipient. Your proposed management decision is due in 120 days,
or on November 18, 2013. To expedite the resolution process, please email an electronic version of your
proposed management decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting
on your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want released to the public. If your response contains
such data, you should identify the data for redaction or removal. We have no objection to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions about this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
Projected Emission Reductions Overstated and                                                                                      13-R-0321
Buy American Requirements Not Met Under
EPA Award to the Tennessee Department of Transportation




                                  Table of Contents

Chapters
   1    Independent Attestation ...................................................................................                   1


   2    Introduction ........................................................................................................         5


                Purpose .......................................................................................................       5

                Background .................................................................................................          5


   3    Potential Noncompliance With Buy American Requirements .......................                                              13 


                Full Compliance Not Determined.................................................................                     13 

                EPA Determined That Buy American Requirements 

                    Were Not Applicable..............................................................................               13 

                The OIG Disagrees With the EPA’s Determination .....................................                                14 

                Conclusion...................................................................................................       16            

                Recommendations ......................................................................................              17 

                EPA and Recipient Comments ....................................................................                     17 

                The OIG Response .....................................................................................              18 


   4    Assumptions Significantly Overestimated Project Results............................                                         21


                Usage Assumptions Were Significantly Overestimated ..............................                                   21 

                Conclusion…. ..............................................................................................         24        

                Recommendations… ...................................................................................                24        

                EPA and Recipient Comments ....................................................................                     24 

                The OIG Response .....................................................................................              25 


   Status of Recommendations and Potential Monetary Benefits..............................                                          26 




Appendices
   A    TDOT’s Comments on Draft Report..................................................................                           27 


   B    Agency’s Comments on Draft Report ..............................................................                            35 


   C    Agency’s Comments on Position Papers ........................................................                               39


   D    Distribution .........................................................................................................      43 

                                  Chapter 1

                        Independent Attestation
            As part of the Office of Inspector General’s (OIG’s) oversight of cooperative
            agreement awards made by the U.S. Environmental Protection Agency (EPA),
            we examined the Tennessee Department of Transportation’s (TDOT’s)
            compliance with Cooperative Agreement No. 95425709 and applicable federal
            requirements. These requirements include:

                 The Code of Federal Regulations through 40 CFR Part 31, Uniform
                  Administrative Requirements for Grants and Cooperative Agreements to
                  State and Local Governments.
               	 Title 2 CFR Part 225, Cost Principles for State, Local, and Indian Tribal
                  Governments (OMB Circular A-87).
               	 Title 2 CFR Part 176, Requirements for Implementing Sections 1512,
                  1605, and 1606 of the American Recovery and Reinvestment Act of 2009
                  for Financial Assistance Awards.
               	 The American Recovery and Reinvestment Act of 2009 (Recovery Act).

            By accepting funding provided through the cooperative agreement, TDOT is
            responsible for complying with these requirements. Our responsibility is to
            express an opinion on TDOT’s compliance.

            We conducted our examination in accordance with generally accepted
            government auditing standards issued by the Comptroller General of the United
            States. We also utilized the attestation standards established by the American
            Institute of Certified Public Accountants. We examined, on a test basis, evidence
            supporting management’s assertions and performed such other procedures as we
            considered necessary in the circumstances. We believe that our examination
            provides a reasonable basis for our opinion.

            We met with representatives from the EPA’s Region 4 Air, Pesticides, Toxics
            Management Division in Atlanta, Georgia; as well as with representatives from
            the agency’s Office of Transportation and Air Quality, Diesel Emissions
            Reduction Act (DERA) Grants Office at EPA headquarters in Washington, D.C.
            We gathered information on criteria relevant to the cooperative agreement. We
            also obtained an understanding of the proposed agreement and gathered
            information concerning TDOT’s performance. Specifically, we reviewed EPA’s
            request for applications (RFA) and TDOT’s proposal and work plan. We also
            reviewed applicable federal requirements including 2 CFR Parts 176 and 225,
            40 CFR Part 31, and the Recovery Act.




13-R-0321                                                                                       1
            On January 24, 2012, we made a site visit to TDOT’s office in Nashville,
            Tennessee, to conduct interviews and obtain documentation to address our
            objectives.

            To determine if TDOT followed all applicable laws, regulations, and terms and
            conditions of the cooperative agreement in the procurement of contracts for
            truck stop electrification (TSE) facilities, we:

               	 Conducted interviews with TDOT to gain an understanding of the
                  procurement policies and procedures used to award grant contracts for the
                  construction of TSE facilities.
               	 Obtained documentation and analyzed all proposals received in response
                  to TDOT’s RFA to determine whether TDOT followed its selection
                  criteria and process for awarding the contracts.

            To determine if TDOT monitored the performance of the grant contracts to ensure
            compliance with all applicable regulations, statutes, and terms and conditions that
            flowed down from the cooperative agreement, including Recovery Act
            requirements, we:

               	 Conducted interviews with TDOT to gain an understanding of the process
                  used to monitor contract performance.
               	 Obtained and reviewed copies of reports and documents used to monitor
                  and evaluate contract performance during construction of the facilities and
                  throughout the contract period (i.e., progress, monitoring, monthly and
                  quarterly usage, etc.).
               	 Reviewed grant contracts to determine the nature of the work to be
                  performed.
                Identified and analyzed change orders for necessity and scope.
                Reviewed grant contracts for compliance with the Recovery Act’s Buy
                  American provisions, as well as the reporting requirements of the Davis
                  Bacon Act and the Recovery Act.

            To determine if TDOT achieved the objectives of the cooperative agreement and
            accurately reported results to EPA, we:

                 Identified the objectives of the cooperative agreement, including any
                  considerations for air quality.
                Conducted interviews with TDOT to identify how progress under the
                  cooperative agreement is measured and communicated to EPA.
                Obtained and reviewed copies of information that TDOT maintained to
                  track progress and any reports provided to EPA.
               	 Conducted interviews with EPA project officers to discuss their role in
                  TDOT’s contract-selection process and their review of contract documents
                  to ensure compliance with the requirements of the cooperative agreement.


13-R-0321                                                                                     2
               	 Conducted interviews with EPA project officers to identify how TDOT
                  communicates progress under the cooperative agreement and whether the
                  EPA reviews and verifies progress.
                Obtained copies of information provided by TDOT and reviews made by
                  the EPA’s project officers.
                Verified that work required under the cooperative agreement has been
                  accomplished through a review of selected work products.
                Conducted site visits to verify contractors constructed all planned facilities
                  and that the facilities are in operation and properly maintained.
                Reviewed usage reports for each of the four completed TSE facilities.

            We conducted site visits at the four TSE facilities from January 25–26, 2012, and
            performed the following steps:

                  Validated the number of TSE units installed.

                  Observed and noted the condition of TSE equipment. 

                  Inspected units for evidence of compliance with the Recovery Act’s

                   Buy American requirements. 

                  Observed and noted use of the equipment. 

                  Documented observations with photographs. 


            We also reviewed project costs and TDOT’s drawdown of EPA funds.
            Specifically, we performed the following steps:

               	 Obtained, reviewed, and reconciled TDOT’s most recent Federal Financial
                  Report (FFR) for the period ending December 31, 2011.
               	 Discussed the FFR preparation with TDOT to ensure the FFR was
                  prepared in accordance with applicable laws, regulations, and terms and
                  conditions of the cooperative agreement.
               	 Selected and reviewed a judgmental sample of 14 out of 33 contractor
                  invoices. The sample represented $1,220,355 of $1,485,024 total contract
                  costs. We reviewed supporting invoices, payment documents, and
                  associated accounting system entries to determine whether the
                  expenditures were allocable and allowable under 40 CFR Part 31, the
                  cooperative agreement, and Recovery Act Section 1604.
               	 Reviewed all invoices related to TDOT’s outreach program, which totaled
                  $135,992. We reviewed supporting invoices, payment documents, and
                  associated accounting system entries to determine whether the
                  expenditures were allocable and allowable under 40 CFR Part 30, the
                  cooperative agreement, and Recovery Act Section 1604.
               	 Reviewed TDOT’s drawdown procedures, obtained a drawdown history,
                  and selected a judgmental sample of one drawdown for testing. We
                  reviewed supporting documentation to determine if the drawdown was
                  reasonable and properly supported.



13-R-0321                                                                                     3
            We conducted our audit work between January 2012, and January 2013. Our
            examination disclosed material noncompliance with 2 CFR §176.60, Section 1605
            of the Recovery Act, and Section 23 of the cooperative agreement pertaining to
            Buy American requirements. Chapter 3 of this report includes a discussion of the
            noncompliance. In addition, TDOT did not fully comply with Programmatic
            Condition 4 of the cooperative agreement pertaining to the reporting of actual
            project results. Chapter 4 of this report includes a discussion of the
            noncompliance related to TDOT’s potential overstatement of project results in its
            final report.

            As a result, unless TDOT can establish that the project met Buy American
            requirements, we recommend that EPA disallow and recover Recovery Act funds.
            For the potentially overstated project results, we recommend that EPA review the
            assumptions used by TDOT to calculate projected results, assist TDOT with any
            recalculations, and adjust the DERA program reporting of TDOT results to reflect
            recalculated results.

            In our opinion, TDOT has not complied with the requirements of 2 CFR §176.60,
            Section 1605 of the Recovery Act for the cooperative agreement period ending
            November 30, 2011.



            Robert K. Adachi
            Director for Forensic Audits




13-R-0321                                                                                  4
                                     Chapter 2

                                      Introduction
Purpose
               The EPA OIG conducted this review to determine whether TDOT complied
               with the requirements, and terms and conditions of Cooperative Agreement
               No. 95425709, and all related laws and regulations.

               Our objectives were to determine whether TDOT:

                      	 Followed all applicable laws, regulations, and terms and conditions of
                         the cooperative agreement in the procurement of contracts for TSE
                         facilities.
                      	 Monitored the performance of the contracts to ensure compliance with
                         all applicable laws, regulations, and terms and conditions that flowed
                         down from the cooperative agreement, including related Recovery Act
                         requirements.
                      	 Achieved the objectives of the cooperative agreement and accurately
                         reported them to EPA.

Background
               Congress signed the DERA into law in August 2005, under Title VII, Subtitle G
               of the Energy Policy Act of 2005, and authorized up to $200 million per year
               from fiscal year (FY) 2007 through FY 2011 ($1 billion total) for EPA to fund
               programs to achieve significant reductions in diesel emissions. Congress
               appropriated a total of $169.2 million for EPA under the DERA for FYs 2008
               through 2010. Congress appropriated an additional $300 million to EPA in
               FY 2009 for DERA grants under the Recovery Act.

               Health Affects Related to Diesel Emissions

               Diesel emissions account for 6.3 million tons of nitrogen oxide (NOx) and
               305,000 tons of particulate matter in the national mobile emissions inventory
               (2004).1 The emissions are from a variety of on-road and non-road vehicles, such
               as those used for freight, ports, transit, construction, agriculture and energy
               production.

               According to EPA, reducing emissions from diesel engines is one of the most
               important air-quality challenges facing the United States. These emissions

1
 Data obtained from EPA’s RFA No. EPA-ARRA-OAR-OTAQ-09-06, the ARRA Recovery and Reinvestment Act
Funding for the National Clean Diesel Funding Assistance Program, issued in 2009.

13-R-0321                                                                                           5
            contribute to serious public health problems, including asthma, lung cancer, and
            various other cardiac and respiratory diseases. These problems result in thousands
            of premature deaths, millions of lost workdays, and numerous other negative
            health and economic outcomes every year.

            Requirements for Addressing Environmental Results

            EPA Order 5700.7, Environmental Results under Assistance Agreements,
            establishes the agency’s policy for addressing environmental results under EPA
            assistance agreements, including grants and cooperative agreements. Program
            offices must review recipient performance reports to determine whether the
            recipient achieved the outputs and outcomes contained in the work plan.

            TDOT’s Cooperative Agreement

            The EPA awarded Cooperative Agreement No. 95425709 to TDOT on
            June 26, 2009. The agreement provided $2 million of Recovery Act funds for the
            installation of a network of TSE facilities (175-200 electrified parking spaces) at
            select interstate highway truck stops. The objective of the project was to reduce
            long-term idling of Class 8 trucks. The expected results of the project included
            air-pollution reductions and fuel conservation. The initial grant budget and project
            period was from June 1, 2009, to September 30, 2010. At the request of TDOT,
            EPA extended the project period through November 30, 2011.

            TDOT Grant Contract Awards

            TDOT’s work plan proposed to solicit grant applications from truck-stop owners
            wanting to receive grant funding to install TSE equipment. TDOT’s first and
            second RFAs were open only to truck-stop owners. For the first RFA published in
            July 2009, TDOT received two proposals. TDOT made awards to the two truck-
            stop owners. However, due to concerns about the upfront costs of providing
            electric power to the TSE facilities, one truck-stop owner decided not to proceed
            with the project. For the second RFA published in October 2009, TDOT received
            no project proposals.

            In an attempt to allocate the remaining cooperative agreement funds, TDOT
            submitted a request to EPA on April 14, 2010, for an amendment to the work plan
            to allow for a third RFA that would be open to truck-stop owners and TSE
            technology vendors. On June 18, 2010, EPA approved TDOT’s request to issue
            the third RFA to owners and vendors. TDOT received nine applications from TSE
            vendor companies in response to the third RFA. TDOT received no responses
            from truck-stop owners. TDOT made five funding recommendations through the
            third RFA. However, because of a series of events, TDOT later cancelled two of
            the five awards.




13-R-0321                                                                                      6
                TDOT completed four awards. One award went to a truck stop in the first RFA,
                and three awards went to TSE technology vendors in the third RFA. Three of the
                four completed TSE facilities are in operation. Mountain Plaza Truck Stop was
                operational for approximately 3 months after placing its facilities into operation,
                but closed in September 2011 due to bankruptcy and subsequent foreclosure. The
                following images are from the four completed TSE facilities located at these truck
                stops: Mountain Plaza, Pilot Flying J, Super Truck & Travel Plaza, and North
                Forty.




  Mountain Plaza Truck Stop (EnviroDock—30 Spaces)
  Period of operation: May–July 2011. 

  Above and right: Boarded-up and non-operable TSE facilities. 


  (EPA OIG photos)





13-R-0321                                                                                         7
            Pilot Flying J 

            (Convoy Solutions-IdleAire—33 Spaces) 

            Placed into operation: October 2011.

            Above: TSE parking spaces.
            Below: Close-up of a window unit.

            (EPA OIG photos)




13-R-0321                                             8
            Super Truck & Travel Plaza (Shorepower—24 Spaces)
            Placed into operation: October 2011.

            Above: TSE electrical plug-in station.
            Below: View of parking spaces.

            (EPA OIG photos)




13-R-0321                                                       9
            North Forty Truck Stop

            (Jr Enterprises-AirDock—30 Spaces)

            Placed into operation: October 2011.

            Above: TSE parking spaces.
            Below: Close-up of a window unit.

            (EPA OIG photos)




13-R-0321                                          10
                    Buy American Requirements

                    Title 2 CFR §176.60 and Section 1605 of the Recovery Act prohibit the use of
                    Recovery Act funds for a project unless all of the iron, steel, and manufactured
                    goods used in the project are produced in the United States. Section 1605 also
                    requires that this prohibition be consistent with U.S. obligations under
                    international agreements, and provides for a waiver under three circumstances:

                         (1) Iron, steel, or relevant manufactured goods are not produced in the United
                             States in sufficient and reasonably available quantities and of a
                             satisfactory quality.
                         (2) Inclusion of iron, steel, or manufactured goods produced in the United
                             States would increase the overall project costs by more than 25 percent.
                         (3) Applying the domestic preference would be inconsistent with public
                             interest.

                    Title 2 CFR §176.140(a)(1) defines a manufactured good as a good that is brought
                    to the construction site for incorporation and has been processed into a specific
                    form and shape, or combined with raw materials to create a material that has
                    different properties than the properties of the individual raw materials. There is no
                    requirement with regard to the origin of components in manufactured goods, as
                    long as the manufacture of the goods occurs in the United States.2 In the case of a
                    manufactured good that consists in whole or in part of materials from another
                    country, a domestically manufactured good is one that has been substantially
                    transformed in the United States into a new and different manufactured good
                    distinct from the materials from which it was transformed.3

                    To assist recipients of Recovery Act funds, the EPA developed several guidance
                    documents and Internet-based training modules explaining the concept of
                    substantial transformation and the types of documentation needed to support a
                    substantial transformation determination. Key documents include:

                        • 	Determining Whether “Substantial Transformation” of Components Into a
                           “Manufactured Good” Has Occurred in the U.S.: Analysis, Roles, and
                           Responsibilities, October 22, 2009 (Determining Substantial
                           Transformation)
                        • 	Buy American Provisions of ARRA Section 1605 Questions and Answers—
                           Part 1, revised September 22, 2009 (Buy American Q&A Part 1)
                        • Buy American Provisions of ARRA Section 1605 Questions and Answerers—
                           Part 2, November 16, 2009 (Buy American Q&A Part 2)




2
    Title 2 CFR §176.70(a)(2)(ii) and Title 2 CFR §176.160(a), “Domestic iron, steel, and/or manufactured good.”
3
    Title 2 CFR §176.160(a), “Domestic iron, steel, and/or manufactured good.”

13-R-0321                                                                                                          11
            These guidance documents provide:

               •	 An explanation of substantial transformation.
               • A matrix of questions for determining whether substantial transformation
                  has occurred in the United States.     .
               •	 The requirements for the type of documentation needed to support 

                  substantial transformation. 

               •	 The need to retain the documentation to support compliance with 

                  Section 1605 of the Recovery Act 


            The EPA also included the Buy American requirements in TDOT’s cooperative
            agreement. Section 23 of the cooperative agreement states that none of the funds
            made available under the Recovery Act may be used for a project for the
            construction, alteration, maintenance, or repair of a public building or public
            work; unless all of the iron, steel, and manufactured goods used in the project are
            produced in the United States. TDOT in turn included the same requirement in all
            four of the completed grant contract awards.




13-R-0321                                                                                    12
                                  Chapter 3

                  Potential Noncompliance With
                   Buy American Requirements

            TDOT followed applicable laws, regulations, and terms and conditions of the
            cooperative agreement in the procurement and monitoring of contracts for TSE
            facilities, except for the Buy American requirements. While TDOT obtained Buy
            American certifications from three of the four grant contract awardees, TDOT did
            not determine whether trusses used in the construction of TSE facilities by one
            contractor qualified as substantial transformation as defined in 2 CFR §176.160.
            This occurred because subsequent to the contract awards, EPA incorrectly
            determined that the requirements did not apply to the project. Consequently, there
            was no assurance that all iron, steel, or manufactured goods incorporated into the
            project were manufactured or substantially transformed in the United States, as
            required by Section 1605 of the Recovery Act. Unless TDOT can demonstrate (or
            certify) compliance with Buy American requirements for the project, or obtain an
            EPA waiver, TDOT’s project to install a network of TSE facilities at selected
            interstate truck stops is not eligible for Recovery Act funds.

Full Compliance Not Determined

            Although TDOT began raising questions to EPA about the applicability of the
            Buy American provisions before issuing its third RFA, all grant contracts awarded
            by TDOT included Buy American requirements. TDOT initially obtained
            certifications indicating compliance with the requirement for two of the four grant
            contract awards. TDOT also received written documentation in a memorandum
            from a third grant contract awardee contending that there was “substantial
            transformation” within the meaning of the Buy American requirements of the
            trusses used in the construction of the TSE facilities. However, the approval of the
            substantial transformation issue became a moot point based on EPA’s subsequent
            determination of the non-applicability of Buy American provisions. To the OIG’s
            knowledge, the substantial transformation claim was never reviewed and
            approved by TDOT. In 2013, TDOT obtained a certification from the fourth grant
            contract awardee.

EPA Determined That Buy American Requirements
Were Not Applicable
            Although EPA included Buy American requirements in the cooperative
            agreement, EPA subsequently determined that the requirements did not apply



13-R-0321                                                                                    13
            to the project. EPA stated that the project was not a public work conducted by
            TDOT. Rather, EPA believed TDOT subgranted the project to private entities and
            the requirements did not apply.

            EPA based its decision on a prior determination by the DERA program. The prior
            determination found in Section 23 of the cooperative agreement, Required Use of
            American Iron, Steel, and Manufactured Goods, stated:

                   For the purposes of this Buy American term and condition (as applied to
                   diesel emissions reduction projects conducted pursuant to DERA), EPA
                   has determined that this term and condition applies to projects involving
                   the construction, alteration, maintenance or repair of Truck Stop
                   Electrification (TSE) facilities and projects for the construction, alteration,
                   maintenance or repair of heavy generators (such as those used in public
                   energy production) which are considered to be public works when a
                   governmental entity is conducting the project.

            Per EPA, the work plan established that TDOT’s role was to develop and
            facilitate a grant competition and oversee the selection of subgrantees that would
            move forward with developing TSE parking spaces best suited for their respective
            locations and clientele. Therefore, the subgrantees would be conducting the
            project. TDOT was required to maintain primary responsibility for ensuring
            successful completion of the approved project. TDOT was also required to
            monitor performance of the subrecipients and ensure compliance with applicable
            laws, regulations, and terms and conditions that flow down in the subaward.

The OIG Disagrees With the EPA’s Determination
            The OIG does not agree with the EPA’s determination regarding the applicability
            of Buy American requirements. To the contrary, the OIG concluded that TDOT
            contracted rather than subgranted the procurement and installation of the TSE
            facilities. In doing so, TDOT conducted the project, and per the DERA program
            determination, Buy American requirements would apply.

            We agree with EPA that the initial work plan addressed the selection of
            subgrantees (or truck-stop partners). However, as discussed in the Background
            section of this report, due to a lack of response from the truck-stop community,
            TDOT stated it received EPA approval to revise the work plan to open the
            competition to TSE technology vendors. This resulted in TDOT’s procurement of
            equipment and installation of the equipment directly from three TSE technology
            vendors. The OIG concluded that these relationships, as well as the relationship
            with the one truck stop awardee, are indicative of a contract (or vendor)
            relationship rather than a subgrant relationship as asserted by EPA.




13-R-0321                                                                                       14
                  TDOT’s Policy Statement 22 pertaining to subrecipient contract monitoring 4
                  identifies a vendor as:

                           a dealer, distributor, merchant, or other seller providing goods or services
                           that are required for the conduct of a Federal program. These goods or
                           services may be for an organization’s own use or for the use of
                           beneficiaries of the Federal program.

                  Further, the policy refers to the use of characteristics identified in OMB Circular
                  A-133, Section 210, Subparts (b) and (c) to distinguish a subrecipient from a
                  vendor.

                  Table 1 presents OMB Circular A-133, Section 210 characteristics for
                  determining whether a subrecipient or vendor relationship exits. 5

                  Table 1: Characteristics of a subrecipient versus a vendor
                        A subrecipient organization:                   A vendor organization:

                  Determines who is eligible to receive what         Provides goods and services within normal
                  federal financial assistance.                      business operations.
                  Has its performance measured against               Provides similar goods or services to many
                  whether the objectives of the federal              different purchasers.
                  program are met.
                  Has responsibility for programmatic                Operates in a competitive environment.
                  decision-making.
                  Has responsibility for adherence to                Provides goods or services that are
                  applicable federal program compliance              ancillary to the operation of the federal
                  requirements.                                      program.
                  Uses federal funds to carry out a program          Is not subject to compliance requirements
                  of the organization, as compared to                of the federal program.
                  providing goods or services for a program
                  of the pass-through entity.
                  Source: OMB Circular A-133 and the EPA OIG.

                  The OIG conducted an analysis of TDOT’s four grant contract awards using
                  OMB’s relationship characteristics. With one exception, we concluded that the
                  relationships for the four awards are indicative of the characteristics of a vendor;
                  not a subrecipient. In summary, TDOT’s awardees did not:

                          Determine who is eligible to receive federal funds. 

                          Have their performance measured against the objectives of the program. 

                          Have responsibility for making program decisions. 

                          Use federal funds to carry out a program of their organization. 



4
  State of Tennessee, Department of Finance and Administration Policy 22, Subrecipient Contract Monitoring

(Revised 7/1/04).

5
  Per OMB Circular A-133, it is not expected that all of the characteristics will be present and judgment should be

used in determining whether an entity is a subrecipient or a vendor. 


13-R-0321                                                                                                          15
            However, TDOT did require the awardees to comply with applicable Recovery
            Act requirements identified in the cooperative agreement. This requirement is a
            characteristic indicative of a subrecipient rather than a vendor.

            In addition to the characteristic analysis, the OIG reviewed information from
            TDOT regarding the relationship with its grant contract awardees. The OIG
            learned that:

               	 TDOT reviewed OMB Circular A-133 and believed that a vendor
                  relationship would best describe their awardees. However, TDOT noted
                  that the cooperative agreement refers to subgrants, subawards, and
                  subrecipients.
               	 TDOT considered the grantees to be vendors and did not include them in
                  the state’s subrecipient monitoring program (required for subrecipients by
                  Policy Statement 22). However, TDOT stated that it had been
                  conscientious in trying to address the administrative and programmatic
                  requirements established by the cooperative agreement. TDOT indicated it
                  would have done the same regardless of whether the grantees were
                  characterized as vendors or subrecipients. TDOT noted that the only
                  practical difference is that the projects did not have to be included in the
                  subrecipient monitoring program.
               	 The TDOT office that set up the Recovery Act 1512 reporting also set up
                  the projects as subrecipients. As a result, most of the office’s
                  communications referred to the grantees as subrecipients rather than
                  vendors.

Conclusion

            The OIG’s review and analysis support TDOT making contract awards rather than
            subgrants to the Mountain Plaza Truck Stop and to the three TSE technology
            vendors. TDOT also maintained primary responsibility for ensuring successful
            completion of the project and for monitoring the grant contract awards to ensure
            full compliance with laws, regulations, and terms and conditions of the
            cooperative agreement. Because of EPA’s determination of non-applicability of
            Buy American requirements, TDOT halted its efforts to determine compliance
            with the requirements. As a result, there is no assurance TDOT complied with
            Recovery Act requirements.




13-R-0321                                                                                     16
Recommendations
                 We recommend that the Region 4 Regional Administrator:

                     1.	 Disallow and recover Recovery Act funds of $1,623,049, unless TDOT
                         can certify that the project complied with Buy American requirements in
                         the Recovery Act, as required by the EPA cooperative agreement with
                         TDOT.

                     2.	 For the iron, steel, and manufactured goods for which TDOT cannot
                         certify compliance, employ the procedures set forth in 2 CFR §176.130
                         to resolve the noncompliance. In the event that Region 4 decides to retain
                         foreign iron, steel, and manufactured goods in the project under 2 CFR
                         §176.130 (c)(3), Region 4 should reduce the amount of the award by the
                         cost of the steel, iron, or manufactured goods that are used in the project.6

EPA and Recipient Comments

                 The OIG received comments on the draft report from TDOT and Region 4.
                 Region 4 also provided supplemental documentation as support for its comments.
                 The supplemental documentation is not included in the report but is available
                 upon request.

                 TDOT disagreed with our conclusion and recommendations and responded with
                 several points. First, TDOT stated that Section 1605 of the Recovery Act and
                 2 CFR Part 176 provide that the federal agency issuing the grant shall determine
                 whether the Buy American provisions are applicable to a project. Second, TDOT
                 made the case that the purchase and installation of TSE equipment at privately
                 owned truck stops was not a public work under any recognizable definition of the
                 term. Third, TDOT made the case that the agency did not conduct the project.

                 TDOT noted that it requested and received direction from EPA on whether Buy
                 American provisions applied to the project. Per TDOT, EPA clearly told TDOT
                 that the provisions did not apply. Further, TDOT said it followed EPA’s direction
                 and did not require two of the project grantees to certify Buy American
                 compliance. TDOT also included comments regarding “public works projects”
                 and OMB’s Frequently Asked Questions (FAQs) on the Recovery Act website.
                 Specifically, TDOT cited that “If the facility is/will be privately owned, then the
                 ARRA Buy American provision will not apply to it, because it will not be a public
                 building or pubic work.” TDOT also cited two other examples from other
                 agencies’ guidance, where Buy American provisions did not apply. TDOT’s
                 complete written response regarding this discussion is in appendix A.


6
  Since the budget or project period of the Cooperative Agreement expired November 30, 2011, enforcement or
termination in accordance with the agency’s grant management regulation would not be an option for consideration.

13-R-0321                                                                                                      17
            Region 4 responded that TDOT has information that demonstrates Buy American
            compliance for all of its grantees. The region provided a Buy American
            certification, dated February 28, 2013, for JR Enterprises South, LLC. Region 4
            also noted that Convoy Solutions had previously provided written documentation
            in a memorandum to TDOT contending that there was “substantial
            transformation” within the meaning of the Buy American requirements of the
            trusses used in construction of the TSE facilities. The region further stated that
            approval of the substantial transformation claim by Convoy Solutions became a
            moot point following EPA’s determination that Buy American provisions did not
            apply to the project. The region stated that it is likely that TDOT would have
            supported the substantial transformation request. EPA’s complete written
            response regarding this discussion is in appendix B.

            Region 4 also disagreed with our conclusion and recommendations, and stands by
            its original decision that Buy American provisions do not apply. Region 4
            continues to maintain that TDOT’s subgrantees conducted the project. Region 4
            cited TDOT’s work plan for the cooperative agreement, saying the work plan
            established up front that TDOT’s role was to develop and facilitate a grant
            competition and oversee selection of subgrantees that would develop TSE parking
            spaces best suited to their respective locations and clientele. Further, the region
            stated the project does not meet the definition of a “public building and public
            work” listed in 2 CFR §176.140, because TDOT did not retain ownership of the
            TSE parking spaces. Region 4 stated that pursuant to OMB’s Recovery Act
            website, the lack of ownership of the property and equipment negates the
            applicability of Buy American provisions. EPA’s complete written response
            regarding this discussion is in appendix C.

The OIG Response
            The OIG agrees with the Region 4 comments regarding TDOT’s grant award and
            the work plan. However, the OIG does not agree with the conclusion that the
            subgrantees conducted the project. The OIG maintains that TDOT conducted the
            project and contracted for the purchase and installation of the TSE facilities.

            First, the OIG does not agree with Region 4 concerning TDOT making
            subawards. As for the statement: “We agree with EPA that the initial work plan
            addressed the selection of subgrantees (or truck-stop partners),” on page 14 of this
            report, the OIG is only acknowledging that we are in agreement with what the
            work plan states. As discussed in our draft report, the awardees did not meet the
            characteristics of a subgrantee. In addition, TDOT did not consider the awardees
            to be subgrantees and did not include them in the state’s subrecipient monitoring
            program. OMB Circular A-133 (e) states: “Methods to ensure compliance for
            Federal awards made to for-profit subrecipients may include pre-award audits,
            monitoring during the contract, and post-award audits.” Based on the OIG’s
            discussion with TDOT and its external auditors, TDOT did not conduct these
            items because TDOT did not consider the awards to be subgrants.


13-R-0321                                                                                    18
            Further, the OIG disagrees with TDOT’s opinion that the truck stop and TSE
            vendors made programmatic decisions regarding the program (OMB Circular
            A-187 refers to “program” as the “Federal” program). As such, TDOT made all
            programmatic decisions. The truck stop and TSE vendors merely fulfilled their
            obligations under the grant contracts. Additionally, the truck stop and TSE
            vendors did not use federal funds to carry out a program of the organization.
            OMB Circular A-187 uses “organization” to refer to the entity (i.e., truck stop and
            TSE vendors in this instance). TDOT carried out the project under a state
            program. The truck stop and TSE vendors did not have or carry out their own
            programs. In addition, TDOT’s performance was measured against the objectives
            of the federal program, not the truck stop and TSE vendors. TDOT measured the
            truck stop and TSE vendors’ performance against TDOT’s grant contract
            requirements.

            Second, the OIG disagrees with the Region 4 and TDOT comments regarding the
            project not being a public work. The OIG believes the project is a public work
            infrastructure project conducted by TDOT. Public works are a broad category of
            infrastructure projects financed and constructed by the government for
            recreational, employment, and health and safety uses in the greater community.
            Public works are often interchangeable with the term public infrastructures. Per
            EPA, the term infrastructure refers to the substructure or underlying foundation or
            network used for providing goods and services; especially the basic installations
            and facilities on which the continuance and growth of a community, state, etc.,
            depend.

            Congress enacted the Recovery Act to invest in transportation, environmental
            protections, and other infrastructure that will provide long-term economic
            benefits. Based on the definition above, public works are defined by “funding”
            and “community use,” not “ownership.” EPA determined that TSE facilities are
            infrastructure projects under the Recovery Act. The EPA’s DERA program
            determination regarding the applicability of the Buy American provision stated
            that TSE facilities are considered to be public works when a governmental entity
            is conducting the project. EPA’s determination does not address ownership as the
            criteria for making the Buy American determination, as discussed in the OMB
            example cited by Region 4 and TDOT, and the other two examples cited by
            TDOT. Rather, EPA based its determination on who is conducting the project.

            The OIG contends the project is a public works project. Therefore, TDOT, as
            recipient of the funds, is responsible for conducting the project. Or, alternatively,
            one might argue that because TDOT was the responsible entity for conducting the
            project, the project fits the category of public works. This argument is consistent
            with the DERA program determination cited on page 14 of this report.




13-R-0321                                                                                      19
            In conclusion, the OIG acknowledges receipt of the recent Buy American
            certification from JR Enterprises South, LLC. We will revise the report to reflect
            the additional certification. With regards to the Convoy Solution substantial
            transformation request, the OIG obtained the request from TDOT during the
            course of our review. However, the OIG did not consider the request since TDOT
            had not reviewed and accepted the request. Upon TDOT’s acceptance, the OIG
            will review the request, along with the basis for TDOT’s acceptance.




13-R-0321                                                                                   20
                                           Chapter 4

                           Assumptions Significantly 

                          Overestimated Project Results 

                 TDOT complied with the cooperative agreement requirements and satisfied
                 Region 4 requirements for determining project results. However, TDOT
                 overstated its results. This occurred because TDOT utilized significantly
                 overestimated usage assumptions in its projections rather than using actual usage
                 data. As a result, TDOT does not have reasonable assurance that the TSE project
                 will achieve its projected emissions reductions. The project may not achieve
                 expected environmental results and human health benefits. Further, the DERA
                 program results may be overstated.

Usage Assumptions Were Significantly Overestimated
                 TDOT utilized assumptions that were significantly overestimated based on project
                 usage data available at the time of the TSE project final report. The assumptions
                 include:

                         The use of estimated hours rather than actual hours of operation.
                         The use of installed facilities rather than operable facilities.

                 TDOT initially proposed the installation of a network of 175-200 electrified
                 parking spaces. For 200 spaces, TDOT projected reductions in air pollution
                 including 60.32 tons per year of NOx; 1.72 tons per year of particulate matter;
                 and 3,552 tons per year of carbon dioxide. TDOT also projected a savings of
                 approximately 350,000 gallons of diesel fuel per year. TDOT calculated the
                 reductions, as encouraged by EPA’s grant solicitation, using the diesel emissions
                 quantifier. The calculations required TDOT to make assumptions regarding the
                 use of the facilities. TDOT assumed truck drivers would use the facilities for
                 8 hours per day for an average of 250 days per year. TDOT used the National
                 Deployment Strategy for Truck Stop Electrification,7 published in 2006, and the
                 federal Hours of Service Regulations 8 as the basis for these assumptions.

                 Per the TSE project final report, dated February 28, 2012, TDOT installed 117
                 spaces rather than the 175-200 spaces proposed. While the TSE project final
                 report discussed the various reasons for not installing the proposed 175-200
                 spaces, TDOT initially did not revise its projected results to reflect the actual

7
  Study conducted by the Texas Transportation Institute under a grant funded by EPA.

8
  U.S. Department of Transportation, Federal Motor Carrier Safety Administration, Sleeper Berth Provision, 

requiring at least 8 consecutive hours in the sleeper berth.



13-R-0321                                                                                                      21
            spaces installed. Programmatic Condition 4 of the cooperative agreement states
            that the final project report will include a summary of the project or activity,
            actual results (outputs and outcomes), and costs. The condition also says the final
            report will include actual emissions benefit calculations.

            TDOT used EPA’s DERA Program Final Report Template, Part 1, December
            2010, to prepare the final report. The template provides a narrative discussion of
            actual project results and examples of how to quantify results. These results may
            include, but are not limited to: emission reductions, cost effectiveness, diesel fuel
            saved, health benefits achieved, and documented improved ambient air quality.

            At EPA’s request, TDOT later updated projected results in the final report using
            the actual spaces installed. However, TDOT’s update included the same
            assumptions used to calculate the initial reductions proposed for the 175-200
            spaces. With the requested updates, EPA accepted the final report on
            March 19, 2012.

            While EPA asked TDOT to update its assumptions based on actual units installed,
            EPA did not ask TDOT to update its usage assumption based on actual usage. As
            such, TDOT’s updated results continue to represent estimated rather than actual
            results. TDOT’s reporting is not consistent with the DERA program final report
            template that discusses actual results. Because TDOT did not consider actual
            usage, the projected results for the project are potentially overstated—including
            annual and lifetime emission reductions, capital and total project cost
            effectiveness, and gallons of diesel fuel saved.

            Use of Estimated Hours Rather Than Actual Hours of Operation

            TDOT’s initial assumptions estimated 8 hours per day of idling. Usage data at the
            time of the TSE project final report was significantly lower than the estimated
            8 hours per day. Table 2 shows actual usage through December 2011 at only
            3.7 percent of planned usage.

            Table 2: Summary of actual versus projected TSE facility usage *
                                                                                                    Percent
                                          Reporting         No. of      TSE        Planned
                                                                                                       of
                                          Months for       spaces      hours         usage
                   TSE Vendor                                                                       planned
                                            2011          installed    used       (8 hrs/day)
                                                                                                     usage
             Mountain Plaza
             Truck Stop                    May–July              30        514          15,120                3.4
             North Forty Truck Stop
             (JR Enterprises)              Oct.–Dec.             30         52          15,120                0.3
             Super Truck & Travel
             Plaza (Shorepower)            Oct.–Dec.             24           0         12,096                0.0
             Pilot Flying J
             (Convoy Solutions)            Oct.–Dec.             33      1,625          16,632                9.8
             Totals                                             117      2,191          58,968                3.7
            Source: EPA OIG.

            (*) Usage calculated at 8 hours/day x 21 days/month (based on TDOT) x no. of spaces installed.



13-R-0321                                                                                                     22
            The following factors contributed to the lower usage: (1) Mountain Plaza Truck
            Stop closed after approximately 3 months of operation; (2) three facilities were
            not completed and placed into operation until October 2011; and (3) truck drivers
            were using TSE facilities at lower-than-projected levels. According to the
            TSE project final report, there are several other factors contributing to lower-than-
            projected levels of use, including the fact that many major companies will not pay
            for their drivers to use the units, and that drivers remain skeptical of the
            equipment despite relatively low prices.

            TDOT believes that the project partners have a great deal of work to do to
            persuade truck drivers to use the facilities. Further, TDOT said that in the absence
            of a serious outreach effort or a significant spike in diesel fuel prices, TSE
            equipment usage is likely to remain low.

            In August 2012, TDOT communicated to the OIG that usage data collected for the
            first two quarters of 2012 indicate TSE vendors that have implemented proactive
            outreach efforts are achieving the best results. TDOT continues to encourage
            marketing of the TSE facilities. In addition, as noted in the TSE project final
            report, TDOT has employed billboard advertising and targeted magazine and
            website advertising to help make truck drivers aware of TSE facilities available in
            Tennessee. TDOT will also continue to work with TSE vendors and truck-stop
            owners to raise awareness and encourage truck drivers to increase their use of
            TSE facilities.

            However, unless TDOT can demonstrate a significant increase in usage of TSE
            facilities, project results will remain significantly overstated. TDOT could achieve
            a more accurate projection of results based on actual usage or a more realistic
            assumption for anticipated usage, rather than the 8 hours per day currently used.

            Use of Installed Rather Than Operable Facilities

            The 117 installed spaces
            used in the projected results
            calculation of the TSE
            project final report
            included 30 TSE units
            installed at the Mountain
            Plaza Truck Stop. The
            truck stop closed due to
            bankruptcy and subsequent
            foreclosure approximately
            3 months after the TSE
            facilities were placed into
            operation. The truck stop
                                                           Boarded up Mountain PlazaTruck Stop.
            has remained closed and                       (EPA OIG Photo)


13-R-0321                                                                                         23
            the TSE facilities have been nonoperational since September 2011. However,
            TDOT is optimistic about the reopening of the former truck stop and the
            utilization of TSE units installed at the site. Per TDOT, a new owner purchased
            the truck stop in 2012. The new owner views the TSE units as business assets and
            intends to put the units back into operation. Renovations of the property have
            begun, and the new owner plans to reopen the truck stop. Until this actually
            occurs, TDOT has no assurance that the truck stop will reopen or that the new
            owner will operate the TSE facilities.

Conclusion

            Unless TDOT can demonstrate a significant increase in usage of TSE facilities,
            EPA does not have reasonable assurance that the project will achieve projected
            emissions reductions, or expected environmental results and human health
            benefits. A recalculation of results using actual usage data would more accurately
            project results and reflect a more realistic assumption for anticipated usage.

Recommendations
            We recommend that the Region 4 Regional Administrator:

               3.	 Review the assumptions used by TDOT to calculate projected results to
                   determine if the assumptions are valid, consistent with the DERA program
                   guidance, and representative of project usage. If needed, work with TDOT
                   to develop a more accurate projection of project results based on actual
                   usage and a more realistic assumption of anticipated usage.

               4.	 Review any recalculated results of the project in accordance with EPA
                   Order 5700.7 and Programmatic Condition 4 to determine whether TDOT
                   achieved the objectives of the cooperative agreement.

               5.	 Adjust the DERA program reporting of TDOT project results to reflect
                   recalculated results.

EPA and Recipient Comments

            The EPA concluded that the overall objectives of the cooperative agreement have
            been met. This includes installing and operating a network of 117 electrified
            parking spaces across Tennessee, with some level of demonstrated emission
            reductions and fuel savings based on the limited TSE usage data available to
            TDOT at the time the final project report was prepared and submitted to the EPA.
            The EPA has already taken steps in conjunction with TDOT to address the
            concerns raised in the draft report. EPA is working with TDOT to rerun the diesel
            emissions quantifier. Post-project TSE usage data will be utilized to produce



13-R-0321                                                                                   24
            updated emissions-reduction information, which will be incorporated as an
            addendum to this project.

            TDOT stated its willingness to work with EPA staff to modify the estimates of
            project results based on actual usage or a revised assumption of anticipated usage.
            However, TDOT offered the following comments that are relevant to the
            finding and the cause of the finding.

            In regards to using estimated hours of use rather than actual hours of operation,
            TDOT stated that it is notable that there was very limited usage data at the end of
            the project period, which ended November 30, 2011. The TSE project final report
            was due in February 2012. TDOT did not have a more accurate method for
            forecasting the hours of use of the project’s TSE equipment; therefore,
            assumptions from TDOT’s grant application were used to prepare the final report.

            TDOT believed that it was clear in its proposal that the estimate considered the
            potential for reducing emissions. The estimates for emissions were calculated, as
            directed by EPA’s grant solicitation, using the diesel emissions quantifier. TDOT
            assumed one truck per parking space for each of the proposed electrified parking
            spaces (e.g., 100 parking spaces provides the opportunity to reduce emissions
            from 100 trucks per day times an estimated 250 days per year). TDOT believed
            this to be a reasonable estimate of the potential emissions that could be reduced
            through TSE.

            TDOT understands the OIG’s concern about the accuracy of calculating emissions
            benefits based on the use of installed facilities rather than operable facilities.
            For the purposes of the TSE project final report, however, TDOT believed that
            including installed TSE spaces in the calculations of potential emissions
            reductions was reasonable. As recommended by the OIG, TDOT is willing to
            work with EPA staff to modify the estimates of project results based on actual
            usage or a revised assumption of anticipated usage.


The OIG Response
            The OIG acknowledges comments from Region 4 and TDOT, and understands the
            basis for the calculations. However, the OIG continues to maintain that unless
            TDOT can demonstrate a significant increase in usage of TSE facilities, project
            results will remain significantly overstated. The OIG commends TDOT’s
            willingness to work with EPA staff to modify the estimates on actual usage or
            revise the assumptions concerning anticipated usage. The OIG also commends
            Region 4 and the efforts the region has already taken to address the issue, and we
            look forward to the receipt and evaluation of updated emission information.




13-R-0321                                                                                    25
                                       Status of Recommendations and
                                         Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                            Planned
 Rec.      Page                                                                                            Completion   Claimed    Agreed-To
 No.        No.                          Subject                        Status1      Action Official          Date      Amount      Amount

  1         17    Disallow and recover Recovery Act funds of              U             Region 4                         $1,623
                  $1,623,049, unless TDOT can certify that the                    Regional Administrator
                  project complied with Buy American requirements
                  in the Recovery Act, as required by the EPA
                  cooperative agreement with TDOT.

  2         17    For the iron, steel, and manufactured goods for         U             Region 4
                  which TDOT cannot certify compliance, employ the                Regional Administrator
                  procedures set forth in 2 CFR §176.130 to resolve
                  the noncompliance. In the event that Region 4
                  decides to retain foreign iron, steel, and
                  manufactured goods in the project under 2 CFR
                  §176.130 (c)(3), Region 4 should reduce the
                  amount of the award by the cost of the steel, iron,
                  or manufactured goods that are used in the project.
  3         24    Review the assumptions used by TDOT to                  U             Region 4
                  calculate projected results to determine if the                 Regional Administrator
                  assumptions are valid, consistent with the DERA
                  program guidance, and representative of project
                  usage. If needed, work with TDOT to develop a
                  more accurate projection of project results based
                  on actual usage and a more realistic assumption of
                  anticipated usage.

  4         24    Review any recalculated results of the project in       U             Region 4
                  accordance with EPA Order 5700.7 and                            Regional Administrator
                  Programmatic Condition 4 to determine whether
                  TDOT achieved the objectives of the cooperative
                  agreement.

  5         24    Adjust the DERA program reporting of TDOT               U             Region 4
                  project results to reflect recalculated results.                Regional Administrator




      1	    O = Recommendation is open with agreed-to corrective actions pending.
            C = Recommendation is closed with all agreed-to actions completed.
            U = Recommendation is unresolved with resolution efforts in progress.




13-R-0321                                                                                                                                 26
                                                                                               Appendix A

                    TDOT’s Comments on Draft Report




                                       STATE OF TENNESSEE
                                DEPARTMENT OF TRANSPORTATION
                                     LONG RANGE PLANNING DIVISION
                                       SUITE 900, JAMES K. POLK BUILDING
                                             505 DEADERICK STREET
                                       NASHVILLE, TENNESSEE 37243-1402
                                                   (615) 741-3421
JOHN C. SCHROER                                                                                   BILL HASLAM
COMMISSIONER                                                                                       GOVERNOR



March 11, 2013

Ms. Angela Bennett
EPA Office of Inspector General
61 Forsyth St., SW (Mail Code 12T26)
Atlanta, GA 30303

RE:      Comments on Draft Attestation Report
         Examination of Costs and Compliance for Cooperative Agreement No. 95425709
         Awarded to the Tennessee Department of Transportation

Dear Ms. Bennett:

The Tennessee Department of Transportation (TDOT) values the opportunity to review and comment on the
draft report prepared by EPA's Office of Inspector General (OIG) on the audit of TDOT Cooperative
Agreement 95425709. TDOT’s comments on each major recommendation are presented below.

TDOT's application for this ARRA Diesel Emissions Reduction Grant directly addressed EPA Region 4's first
priority of developing a Regional Green Corridors Program focusing on idle reductions for trucking along
interstate corridors. The agency’s proposal for this economic stimulus grant also addressed another grant
criterion, which was to assist those most affected by the current economic conditions, in this case truck owners
and drivers and truck stop owners.

Truck stop electrification (TSE) technology saves fuel and reduces harmful diesel emissions. It saves money
for drivers who use the technology by allowing them to cut off their engines and use a more environmentally
sound way to heat and cool their trucks while they rest. TSE demonstrates tremendous potential for significant
reductions in pollutant and noise emissions at low operational cost to the driver. TSE installations also offer
long-term economic benefits by providing a continuing source of revenue to truck stops while reducing truck
owners’ operational costs.




13-R-0321                                                                                                     27
Regarding the OIG draft report, TDOT was surprised and deeply disappointed at the arbitrary and capricious
nature of the OIG recommendations. Further, TDOT is mystified by OIG’s recommendation that the grantee
(i.e., TDOT) be severely punished for what is essentially an internal disagreement between EPA and OIG on
the applicability of Buy American provisions.

Before responding to the details of the draft report, TDOT would like to emphasize several points.

First, the statutory language of ARRA anticipated many questions that would likely arise regarding the
technical details of Buy American compliance. Section 1605 of the American Recovery and Reinvestment Act
of 2009 (ARRA) and 2 CFR Part 176 provide that the federal agency issuing the grant shall determine whether
the Buy American provisions are applicable to a project. EPA determined that Buy American did not apply to
this project.

 OIG Response 1: The OIG does not agree that Section 1605 of the Recovery Act and 2 CFR
 Part 176 give federal agencies the authority to determine whether Buy American provisions
 are applicable to the project. Rather, the provisions give federal agencies the authority to
 allow the recipient to use foreign iron, steel, or manufactured goods in the project without
 regard to the restrictions of Section 1605 of the Recovery Act, when one of three exceptions
 apply (i.e., nonavailability, unreasonable cost, or inconsistent with public interest). EPA did
 not base its determination on these exceptions.


Second, in TDOT’s comments on OIG’s draft position paper in August 2012, the agency made the case that
the purchase and installation of truck stop electrification equipment at privately owned truck stops was not a
public work under any recognizable definition of the term.

Third, TDOT also made the case that the agency did not conduct the project.


 OIG Response 2: The OIG disagrees with TDOT and believes the project is a public work
 (infrastructure project) conducted by TDOT. Public works are a broad category of
 infrastructure projects financed and constructed by the government for recreational,
 employment, and health and safety uses in the greater community. Public works are often
 interchangeable with the term public infrastructures. Per EPA, the term infrastructure refers to
 the substructure or underlying foundation or network used for providing goods and services;
 especially the basic installations and facilities on which the continuance and growth of a
 community, state, etc., depend. EPA determined TSE facilities to be infrastructure projects
 under the Recovery Act.

 Congress enacted the Recovery Act to invest in transportation, environmental protections, and
 other infrastructure that will provide long-term economic benefits. Based on the definition
 above, public works are defined by “funding” and “community use,” not “ownership.” The
 OIG contends the project is a public works project. Therefore, TDOT, as recipient of the
 funds, is responsible for conducting the project. Or, alternatively, one might argue that
 because TDOT was the responsible entity for conducting the project, the project fits the
 category of public works. This argument is consistent with the DERA program determination
 cited on page 14 of this report.


13-R-0321                                                                                                        28
TDOT requested and received direction from EPA on whether Buy American provisions applied to the project.
EPA told us clearly that Buy American did not apply to the project. TDOT, in good faith, followed EPA’s
direction and did not require two of the project grantees to certify Buy American compliance. As a result, OIG
now recommends that the appropriate response from EPA is to punish the ARRA project sponsor (i.e., TDOT)
for following that direction.

OIG’s report acknowledges twice that the “cause” of the alleged noncompliance was EPA’s determination that
Buy American did not apply. In the “At a Glance” section at the front of the report, OIG states that TDOT did
not obtain Buy American certifications from all of its Grant Contract awardees. This phrase could be easily
misunderstood because TDOT did obtain Buy American certifications from two grantees. The OIG went on to
say that this “occurred because EPA incorrectly determined, subsequent to the contract awards, that the
requirements did not apply to the project.”

OIG’s conclusion that TDOT should be punished is both harsh and unjust.

Further, OIG also says that the opening of the competition to TSE technology vendors “resulted in TDOT’s
procurement of equipment and installation of the equipment directly from three TSE technology vendors.”
This simply is not accurate. TDOT reimbursed the technology companies after those companies obtained and
installed the technology at interstate truck stops. TDOT supervised the companies’ processes to procure the
equipment and hire contractors to install it on the truck stop property. TDOT did not procure the equipment for
these grantees and does not own the equipment.

After considering all of the above, OIG leaped to the draconian conclusion that TDOT should have ignored
EPA’s direction that Buy American did not apply and substitute TDOT’s judgment that Buy American did
apply. This unfair and punitive judgment stands even though TDOT complied with the determination of Buy
American applicability as provided by Section 1605 of ARRA. Despite the obvious uncertainty regarding this
issue and EPA’s internal disagreement over the determination that EPA made, the OIG decided to recommend
the most severe remedy (i.e., that EPA should disallow and recover the ARRA funds involved).


 OIG Response 3: The OIG acknowledges that TDOT, in good faith, followed EPA’s
 direction regarding the applicability of Buy American requirements. However, as discussed in
 the report, the OIG maintains that EPA incorrectly made this determination. The
 determination regarding the applicability of Buy American should have been made according
 to the exceptions noted in 2 CFR § 176.70. Region 4 did not base its determination on the
 exceptions. Further, the OIG’s conclusions and recommendations are consistent with Section
 1605 of the Recovery Act and 2 CFR Part 176.

OIG Recommendation 1 - ARRA DERA Tennessee DOT Cooperative Agreement No.
95425709

In Chapter 3 of the draft report, OIG comments that “TDOT followed applicable laws, regulations, and terms
and conditions of the cooperative agreement in the procurement and monitoring of contracts for the TSE
facilities with the exception of the Recovery Act Buy American requirements.” The report then recommends
that “EPA disallow and recover applicable Recovery Act funds unless TDOT can certify that the project fully
complied with Buy American requirements.”

TDOT strongly objects to the audit report’s recommendation regarding Buy American compliance and
strongly believes the OIG recommendation is arbitrary, capricious, unfair and unjustified. On August 3, 2012,

13-R-0321                                                                                                   29
TDOT made many of the points below in responding to the OIG’s draft Position Papers. Although the OIG did
not respond to those points in the draft report, TDOT believes the following points are still relevant.

 OIG Response 4: The OIG acknowledges TDOT’s comments. The OIG did evaluate
 TDOT’s response to the position papers and incorporated changes into the draft report as
 deemed necessary. It is not the OIG’s practice to attach and include specific responses to
 position papers in the draft report. The OIG issues position papers primarily to provide an
 opportunity for the auditee to review the findings and recommendations prior to issuing the
 official draft report and to comment on any factual inaccuracies.


Definition of a Public Work
The report states that TDOT "did not provide assurance that all iron, steel, or manufactured goods incorporated
into the project were manufactured in the United States, as required by the Recovery Act." The finding
language focuses on the definition of a "public work" and implies that all Recovery Act infrastructure projects,
regardless of project details, must comply with the Buy American requirements. Section 1605 of the American
Recovery and Reinvestment Act of 2009 (ARRA) and 2 CFR Part 176 provide that the federal agency issuing
the grant shall determine whether the Buy American provisions are applicable to a project.


 OIG Response 5: See OIG Response 1 and 2.



TDOT has reviewed several guidance documents, including one from the Office of Management
and Budget (OMB) on the subject of Buy American applicability. Those documents clearly
indicate only public works projects are subject to Buy American. For example, OMB's Frequently
Asked Questions (FAQs) on the American Recovery and Reinvestment Act (ARRA) of 2009
responded to Question 7 (General Recovery Act FAQ) about whether the Buy American provision
under Section 1605 of ARRA applies to construction undertaken by a university with ARRA
funds. The OMB response included the following sentence: "If the facility is/will be privately
owned, then the ARRA Buy American provision will not apply to it, because it will not be a
"public building or public work." www.whitehouse.gov/omb/recovery_faqs/

Similarly, the National Institute of Standards and Technology (NIST) provided supplemental guidance on that
agency's ARRA grants. This document on page 3 states that governmental entities receiving ARRA funds for
construction of a public building or public work must comply with the ARRA Buy American requirements.
The next sentence in the guidance is directly relevant. The italicized words are included on the NIST web
page. "However, if the facility being constructed ... under the NIST construction grant is or will be privately-
owned, it is not considered to be a public building or a public work and the Buy American requirements do
not apply." www.nist.gov/recovery/upload/FINAL-NCG-SBAG.pdf

The U.S. Department of Energy (DOE) maintains a Frequently Asked Questions website regarding the
American Recovery and Reinvestment Act. The website contains the following question and answer.
Q: Does Buy American apply to private projects, or private contractors on public projects?
A: No, and yes, respectively. The Buy American requirements apply to all Recovery Act funds used for a
project for the construction, alteration, maintenance, or repair of a public building or public work. The
question, therefore, is whether the project is for a public building or public work, not who is performing
the work. Generally speaking, if a government entity owns or leases the building or work, it is a public


13-R-0321                                                                                                     30
building or work that would be subject to the Buy American provision. However, title is not the only
factor (it is not dispositive). Determinations of what is a public building or public work must be made on
a case-by-case basis by the grantee and the Recovery Act award official (the Contracting Officer).
http://www1.eere.energy.gov/recovery/buy_american_faq.html#q6


 OIG Response 6: The OIG does not consider the examples included above to be applicable
 to the situation in question. The OMB’s FAQs example relates to a seemingly unique scenario
 involving a state college or university. The remaining two examples simply represent the
 opinions of other agencies—not the EPA. The agency made its own determination as set forth
 in the cooperative agreement. This determination focuses on who is conducting the
 project—not ownership. See OIG Response 2 for additional information related to this issue.


Cause of Noncompliance - EPA Informed TDOT that Buy American Did Not Apply
For the TDOT ARRA grant, EPA Region 4 confirmed in writing to TDOT that Buy American requirements
did not apply to this truck stop electrification project. This was based on EPA's determination that the project
was not a public work. In fact, the final OIG report refers twice to EPA's determination that Buy American
requirements did not apply to the TDOT project as the cause of the alleged noncompliance. Although the OIG
position paper cites EPA's determination as the cause, OIG unreasonably recommends that EPA's Region 4
Regional Administrator disallow and recover Recovery Act funds.

OIG believes EPA erred in this determination because OIG does not agree with EPA’s conclusion that the
project was not a public work conducted by TDOT. Instead, OIG finds that TDOT conducted the project based
on OIG's interpretation of the definition of public work in Title 2 CFR 176.140. That rule defines public
building and public work as "a public building or public work of a governmental entity (the United States; ...
State and local governments; ....).These buildings and works may include, without limitation, bridges, dams,
plants, highways, parkways, streets, subways, tunnels, sewers, mains, power lines, pumping stations, heavy
generators, railways, airports, terminals, docks, piers, wharves, ways, lighthouses, buoys, jetties, breakwaters,
levees and canals, and the construction ... of such buildings and works."

TDOT cannot understand how a good faith reading of this definition supports the OIG conclusion that the
purchase and installation of truck stop electrification (TSE) technology at privately owned truck stops is a
"public work." Public works are publicly owned. The ARRA funding was used by private entities to purchase
and install TSE equipment at privately owned truck stops. In one case, the equipment was purchased and
owned by a truck stop (the TDOT grantee). In the three other projects, the equipment is owned by a TSE
technology company (TDOT’s grantee) and installed on a privately owned truck stop through a formal
agreement between the TSE technology company and the truck stop. In all cases, the equipment was
purchased by and is owned by a private sector company.


 OIG Response 7: The definition of public works includes no reference to ownership, rather it
 discusses projects of a governmental entity. Additionally, the list of items presented is not
 intended to be complete. See OIG Response 2 for additional OIG comments on public works.




13-R-0321                                                                                                     31
TDOT Did Not Conduct the Project
OIG has concluded that “TDOT contracted rather than subgranted the procurement and installation of the
TSE facilities. In doing so, TDOT conducted the project and, as such, per DERA program determination,
Buy American requirements would apply.” Further, OIG finds that by opening the grant competition to
TSE technology vendors, this “resulted in TDOT’s procurement of equipment and installation of the
equipment directly from three TSE technology vendors.”

TDOT strongly disagrees with the OIG conclusion. As noted in the OIG audit report, TDOT’s role was to
develop and facilitate a grant competition and to oversee the selection of grantees who would be
conducting the project. Further, TDOT’s role was to ensure successful completion of the selected projects,
monitor performance of grantees and ensure compliance with applicable laws, regulations, and terms and
conditions that flow down from the EPA grant award.

The purchase and installation of truck stop electrification (TSE) equipment at four Tennessee truck stops
was carried out by the successful applicants that responded to TDOT's request for grant applications. Those
grantees ordered and received TSE equipment, published bid requests and managed the procurement
process for selecting construction and electric contractors, supervised construction and paid invoices for
equipment and installation costs. Three of the grantees identified candidate truck stops for installing TSE
technology and negotiated agreements with the host truck stops. This was done in all three cases without
TDOT’s involvement or participation. The conclusion that TDOT conducted the project directly contradicts
the facts.

TDOT did provide oversight and monitoring of this ARRA project and TDOT staff worked diligently with
partner companies to ensure that state and federal requirements were met. However, TDOT understands
that this monitoring was required by ARRA and necessary to ensure that procurement and financial
procedures and requirements were satisfied. In any case, that oversight does not mean that TDOT
conducted the project. That conclusion simply cannot be supported by an objective evaluation of how the
project was implemented.

OIG holds that TDOT conducted the project and therefore Buy American requirements applied. As a result,
the final report recommends that EPA ignore the fact that TDOT was following written guidance from EPA -
the federal agency that awarded the grant. Further, OIG recommends that EPA punish the state for following
the guidance established by the granting agency. This suggests that the appropriate EPA action is to punish
the ARRA grantee for a policy disagreement within EPA. This reasoning is arbitrary, capricious, unfair and
unjustified.

If the OIG’s recommendation is accepted, to protect their respective institutions, potential EPA grantees should
be very wary in accepting an EPA grant because the grant could be a great risk to the grant applicant
institution. Grantees should not feel comfortable in following written directions from EPA as the federal
agency issuing the grant. They cannot be confident that following the guidance of the granting federal agency
will protect the grantee from punitive actions if the OIG subsequently determines that a requirement was not
met. If this reasoning is followed, all grantees will be forced to obtain necessary direction from EPA’s Office
of the Inspector General.


 OIG Response 8: The OIG largely agrees with TDOT’s discussion regarding implementation
 of the project. However, the OIG does not agree that the individual grantees conducted the
 project. The OIG maintains that TDOT, as the recipient of the grant funds, conducted the
 project. TDOT in turn contracted with the grantees to purchase and install TSE facilities. See
 OIG Response 2 for additional information related to this issue.

13-R-0321                                                                                                     32
OIG Report Recommendation 2 -ARRA DERA Tennessee DOT Cooperative Agreement No. 95425709

In Chapter 4 of the draft report, OIG comments that “TDOT complied with the cooperative agreement
requirements and satisfied Region 4 requirements for determining project results. However, TDOT overstated
its results. This occurred because TDOT utilized significantly overestimated usage assumptions in its
projections rather than using actual usage data.”

OIG further states that, “While EPA asked TDOT to update its assumptions based on actual units installed,
EPA did not ask TDOT to update its usage assumption based on actual usage. As such, TDOT’s updated
results continue to represent estimated rather than actual results. TDOT’s reporting is not consistent with the
DERA program final report template that discusses actual results.”

The second recommendation in the draft audit report states that "TDOT potentially overstated project results
and the project may not achieve expected environmental and human health benefits." The OIG recommends
that EPA Region 4 review the assumptions used by TDOT to calculate projected results and, if needed, to work
with TDOT to develop a more accurate projection of project results based on actual results and/or a more
realistic assumption for anticipated usage.

TDOT is certainly willing to work with EPA to review TDOT’s projected results and to make any
necessary adjustments to those projections, as directed by Region 4. TDOT offers the following
comments, however, which are relevant to the finding and the cause of the finding.

OIG states that TDOT's estimated environmental results "utilized assumptions that are significantly
overestimated based on project usage data at the time of the Final Report. These assumptions include the
following:
       the use of estimated hours rather than actual hours of operation; and
       the use of installed facilities rather than operable facilities."

In regard to the use of estimated hours of use rather than actual hours of operation, it is notable that there was
very limited usage data at the end of the project period, which ended November 30, 2011. The Final Report
was due in February 2012. TDOT did not have a more accurate method for forecasting the hours of use of the
project TSE equipment and, therefore, used the assumptions from TDOT’s grant application in preparing the
Final Report.

The usage and emissions estimates used in TDOT's grant application were based largely on a study conducted
by the Texas Transportation Institute (TTl), National Deployment Strategy for Truck Stop Electrification,
published in 2006 and funded by a grant through the U.S. EPA Office of Transportation and Air Quality (as
referenced in the grant proposal). According to the TTl study, truck drivers idle their engines from six to 10
hours per day on extended trips. A typical long-haul truck is on the road for an estimated 250 to 300 days per
year, resulting in average annual idling between 1,500 to 3,000 hours per truck.

TDOT proposed to equip 175 - 200 parking spaces with truck stop electrification technology and provided
emission estimates for both 175 and 200 TSE-equipped spaces. TDOT chose to use a more conservative
estimate in both scenarios. Since federal Hours of Service (HOS) regulations allowed truck drivers to claim
eight hours of off-duty rest time in sleeper berths, TDOT used eight hours of rest on an average of 250 days
per year in calculating the baseline data. This is equivalent to a potential 2,000 hours of idle time reduced
annually, which was less than EPA’s Diesel Emissions Quantifier's default assumption of 2,400 hours idle time
per truck.


13-R-0321                                                                                                         33
We believe it was clear in our proposal that this estimate considered the potential for reducing emissions.
Emissions estimates were calculated, as directed by EPA's grant solicitation, using the Diesel Emissions
Quantifier. We assumed one truck per parking space for each of the proposed electrified parking spaces (e.g.,
100 parking spaces provides the opportunity to reduce emissions from 100 trucks per day x an estimated 250
days per year). We believe this is a reasonable estimate of the potential emissions that could be reduced
through truck stop electrification.

As noted in the OIG draft report, upon EPA's request, TDOT updated expected project results in its Final
Report using the actual number of TSE spaces installed and the same assumptions used to calculate the initial
estimated outcomes under the Cooperative Agreement. EPA accepted TDOT’s final report on March 19, 2012.
As TDOT noted in the final report, actual emission reductions will depend on the idling emission rate of
heavy-duty truck engines and the hours of truck idling that are avoided through truckers' use of the TSE
equipment.

TDOT understands OIG's concern about the accuracy of calculating emissions benefits based on the use of
installed facilities rather than operable facilities. For the purposes of the Final Report, however, we believe that
including installed TSE spaces in the calculations of potential emissions reductions was reasonable.

As recommended by the OIG, TDOT is willing to work with EPA staff to modify the estimates of
project results based on actual usage or a revised assumption of anticipated usage.


   OIG Response 9: The OIG acknowledges TDOT’s comments and understands the basis for
   the calculations. However, the OIG continues to maintain that unless TDOT can demonstrate
   a significant increase in usage of TSE facilities, project results will remain significantly
If overstated.
   you have anyThe  OIG commends
                  questions,         TDOT’s
                             please feel free towillingness
                                                contact me to  work with EPA
                                                            at 615-741-6832   orstaff to modify the
                                                                                 at alan.jones@tn.gov.
   estimates based on actual usage or a revised assumption of anticipated usage.


Sincerely,




Alan D. Jones
Manager, Policy Office
Long Range Planning Division

cc:	    Brian Carroll
        Chris Christianson
        Tanisha Hall
        Mel Marcella
        Toks Omishakin
        John Reinbold
        Linda Tidwell




13-R-0321                                                                                                        34
                                                                                     Appendix B

                Agency’s Comments on Draft Report
 




This is in response to your January 24, 2013, email providing an opportunity to comment on the
draft Office of Inspector General report and requesting feedback on concurrence or non-
concurrence with the findings and proposed recommendations from the OIG’s audit of the
Tennessee Department of Transportation’s American Recovery and Reinvestment Act (Recovery
Act) Diesel Emissions Reduction Act (DERA) Project Grant, EPA Grant No. 2A-95425709. The
U.S. Environmental Protection Agency, Region 4, has reviewed the draft report and compared
the findings and recommendations to the information available in the project file and
supplemental information provided by the grantee. Based on this information, we offer the
following response on the draft report which concluded that: (1) TDOT did not ensure
compliance with the Buy American requirements stipulated in the Recovery Act for its EPA
DERA truck stop electrification (TSE) cooperative agreement; and (2) TDOT potentially
overstated project results and the project may not achieve expected environmental and human
health benefits.

Response to Finding 1:

    1.	 The EPA provided a written determination to the TDOT that the Buy American
        provisions do not apply to its truck stop electrification project. While we continue to
        believe that this is an accurate determination, we contacted TDOT to see if it had any
        additional information that would factually address the concerns raised in the draft report

13-R-0321                                                                                        35
      regarding Buy American compliance. At this point, we would conclude that, independent
      of the agency determination of nonapplicability of Buy American to this project, TDOT
      has information to demonstrate Buy American compliance for all of its grantees.

      Mr. Alan Jones of TDOT confirmed to EPA staff that the grantee which had not provided
      a Buy American certification during the project period, JR Enterprises South, LLC, has
      since provided a certification of its Buy American compliance applicable to this project,
      which is provided as an attachment. The only other grantee noted in the OIG report
      whose Buy American compliance status was mentioned involved the entity Convoy
      Solutions. Convoy Solutions had previously provided written documentation in a
      memorandum to TDOT contending that there was a “substantial transformation” within
      the meaning of the Buy American requirements of the trusses used in construction of the
      TSE facilities. Convoy Solutions utilized “sold for scrap” recycled trusses that were
      retrofitted/altered to include the addition of new equipment. The approval of Convoy
      Solutions’ substantial transformation claim became a moot point following the EPA’s
      determination that Buy American did not apply to this project; however, it is likely that
      TDOT would have supported Convoy Solutions’ substantial transformation request. In
      addition, the majority of the costs for this project were either exempt from the Buy
      American requirements or were American made products. For the Convoy Solutions
      project, the total reimbursed costs for the project was $473,250 (invoices attached), of
      which $452,000 was paid to purchase services or exempt items, or to purchase American
      made products.

         OIG Response 1: The OIG acknowledges receipt of the recent Buy American
         certification from JR Enterprises South, LLC. We will revise the report to reflect the
         additional certification. In regards to the Convoy Solution substantial transformation
         request, the OIG obtained the request from TDOT during the course of our review.
         However, the OIG did not consider the request since TDOT had not reviewed and
         accepted the request. Upon TDOT’s acceptance, the OIG will review the request,
         along with the basis for TDOT’s acceptance.

   2. The EPA continues to have concerns about finding number 1 as detailed in our August 6,
      2012, response to OIG’s July 19, 2012, Position Papers. (See attached.)


        OIG Response 2: See OIG comments in the August 6, 2012, response to the OIG’s
        July 19, 2012, position papers (appendix C).


Response to Finding 2:

   1.	 The EPA concluded that the overall objectives of the cooperative agreement have been
       met. This includes the installation and operation of a network of 117 electrified parking
       spaces across Tennessee with some level of demonstrated emission reductions and fuel
       savings based on the limited TSE usage data available to TDOT at the time that the final
       project report was prepared and submitted to the EPA. The EPA has already taken steps


13-R-0321                                                                                         36
      in conjunction with TDOT as outlined in our August 6 memorandum (attached) to
      address the concerns raised in the draft report. EPA is working with TDOT to rerun the
      diesel emissions quantifier. Post project TSE usage data will be utilized to produce
      updated emission reduction information, which will be incorporated as an addendum to
      this project.

        OIG Response 3: The OIG acknowledges comments from Region 4 and commends
        the efforts already taken to address the issue. The OIG looks forward to the receipt
        and evaluation of updated emission information.


Additional comments:

   1.	 On page 12 of the draft report, a conclusion is made that the Mountain Plaza Truck Stop
       grant award was a contract. It is our position that such a conclusion is inconsistent with
       the facts established for this project. The nature of the agreement between the TDOT and
       Mountain Plaza was to carry out a public purpose as part of TDOT’s mission;
       specifically, a reduction in diesel emissions resulting from the installation of electrified
       parking spaces at the truck stop. The nature of this agreement is consistent with that of a
       subaward and acknowledged by the OIG on page 10 of the report which states, “We
       agree with EPA that the initial work plan addressed selection of subgrantees (or truck
       stop partners).” For example, Mountain Plaza Truck Stop conducted an open competition
       soliciting the installation of TSE equipment at its location, and it then selected the TSE
       vendor to complete the TSE work for the project. This demonstrates the independent
       nature of this entity operating as a subawardee as opposed to a TDOT contractor.

        OIG Response 4: The OIG does not agree with Region 4’s assertion that TDOT made
        subawards. As for the statement on page 13 of this report, the OIG is only
        acknowledging that we are in agreement with what the work plan states. As for TDOT
        calling its grant contract awardees, subgrantees, this is just one example of very
        confusing terminology used by TDOT throughout the project. As discussed in our
        draft report, the awardees did not meet the characteristics of a subgrantee. In addition,
        TDOT did not consider the awardees to be subgrantees and did not include them in the
        state’s subrecipient monitoring program. OMB Circular A-133 (e) states: “Methods to
        ensure compliance for Federal awards made to for-profit subrecipients may include
        pre-award audits, monitoring during the contract, and post-award audits.” Based on
        the OIG’s discussion with TDOT and its external auditors, TDOT did not conduct
        these items because TDOT did not consider the awards to be subgrants.


   2.	 It is not clear from the statement on the bottom of page 6, referencing TDOT’s third
       round request for applications “open to truck stop owners and TSE technology vendors”,
       that there is an understanding of the requirement that in order to be eligible for this grant
       competition, a TSE technology vendor must provide evidence of its partnership with a
       truck stop as demonstrated by a letter of commitment from the truck stop, not that a TSE
       vendor could qualify to carry out the electrification grant project on its own. The object


13-R-0321                                                                                         37
       of the partnership was to carry out a public purpose of improving air quality through the
       reduction of diesel emissions rather than to procure goods or services for the direct
       benefit of TDOT, further demonstrating a contract was not present in this case.


         OIG Response 5: The OIG understands the truck stop and the TSE vendor
         “partnership” concept. The paragraph was included in the background section to point
         out that TDOT opened the RFA process to include vendor applicants.

   3.	 The conclusion on page 13 of the report, which addresses the on-going relationship
       between TDOT and the grantee TSE vendors, does not appear to address the direct
       feedback provided by TDOT about its role in the project activities by each grantee. (See
       item 4 in EPA’s August 6 memorandum highlighting the on-going relationship between
       TDOT and the TSE vendor grantees.) TDOT indicated that the grantees did have
       responsibility for programmatic decision-making, used the federal funds to carry out a
       program of the organization (in this case the “TSE vendor/Truck Stop partnership”), and
       had its performance measured against the objectives of the program. The OIG conclusion
       acknowledges that the grantees were required to comply with the applicable Recovery
       Act requirements established in the cooperative agreement, but then does not appear to
       take these facts exhibiting the characteristics that are not indicative of a contract for
       goods and services into consideration in the findings.
         OIG Response 6: For the OIG response to the comment made regarding page 13 of
         the draft report, see the OIG comments in the August 6, 2012, response to the OIG’s
         July 19, 2012, position papers, Item 4 (appendix C).

         The OIG disagrees with TDOT that the truck stop and TSE vendors made
         programmatic decisions regarding the program (OMB Circular A-187 refers to
         “program” as the “Federal” program). As such, TDOT made all programmatic
         decisions. The truck stop and TSE vendors merely fulfilled their obligations under the
         grant contracts. Additionally, the truck stop and TSE vendors did not use federal funds
         to carry out a program of the organization. OMB Circular A-187 uses “organization”
         to refer to an entity (i.e., the truck stop and TSE vendors in this instance). TDOT
         carried out the project under a state program. The truck stop and TSE vendors did not
         carry out their own programs. In addition, TDOT’s performance was measured against
         the objectives of the federal program, not the truck stop and TSE vendors. TDOT
         measured the truck stop and TSE vendors’ performance against TDOT’s grant
         contract requirements.


Thank you for the opportunity to provide comments on this draft report. If you have any
questions on this response, please do not hesitate to contact Mr. Stuart Perry of my staff at 404-
562-8980 or via email at perry.stuart@epa.gov


Attachments (3)


13-R-0321                                                                                        38
                                                                                       Appendix C

            Agency’s Comments on Position Papers




The purpose of this memorandum is to respond to the July 19, 2012, position papers provided by
the Office of Inspector General developed following your audit of the Tennessee Department of
Transportation’s (TDOT) ARRA DERA Project Grant, EPA Grant No. 2A-95425709. We have
reviewed the position papers issued by your office and compared your findings to the
information available in the project file and supplemental information provided by the grantee.
Based on this information we offer the following response to your findings which concluded
that: (1) TDOT did not ensure compliance with the Buy American requirements stipulated in the
Recovery Act for its EPA Diesel Emissions Reduction Act truck stop electrification (TSE)
project grant; and (2) TDOT potentially overstated project results and the project may not
achieve expected environmental and human health benefits:

   1.	 Regarding Finding 1, we do not agree with the finding and do not concur with your
       recommendation to disallow and recover any Recovery Act grant funds for this project
       grant. Further, pursuant to Agency responsibilities under Section 1605 of the Recovery
       Act, EPA has stated in writing that the Buy American provisions do not apply to this
       truck stop electrification project grant, and stand-by that decision as the facts in this case
       do not factually support the finding noted above. The following information is provided
       as factual information to support our position.

   2.	 The TDOT project grant was awarded for the purpose of providing funding to support the
       installation of a network of electrified parking spaces at selected interstate highway truck

13-R-0321                                                                                          39
       stops in Tennessee. The work plan for this cooperative agreement established up front
       that TDOT’s role was to develop and facilitate a grant competition and oversee the
       selection of sub-grantees who would be selected to move forward with developing TSE
       parking spaces that best suit their location and clientele.

        OIG Response 1: The OIG agrees with the comments regarding the grant award and
        the work plan. However, the OIG does not agree with Region 4’s conclusion that the
        subgrantees would be conducting the project. The OIG maintains that TDOT
        conducted the project by contracting for the purchase and installation of TSE
        facilities.


   3.	 As stated in the terms and conditions of this project grant, TDOT was required to
       maintain primary responsibility for ensuring successful completion of the EPA-approved
       project and to monitor the performance of the sub-recipient(s) and ensure that they
       comply with all applicable regulations, statutes, and terms and conditions which flow
       down in the sub-award. TDOT was required to ensure that sub-recipients are aware of
       requirements imposed upon them by Federal statutes and regulations. TDOT was also
       required to ensure that any sub-award(s) comply with the standards in Section 210(a)-(d)
       of OMB Circular A-133 and will not be used to acquire commercial goods or services for
       the recipient (TDOT). Therefore, it is clear that TDOT was required to take an active role
       in the performance of this project and were critical to the success of this project.


        OIG Response 2: The OIG agrees with TDOT’s requirements under the cooperative
        agreement. Hence, TDOT—which maintained primary responsibility for ensuring
        successful completion of the project and for monitoring the subrecipients to ensure
        full compliance with regulations, statutes, terms and conditions—did in fact “conduct”
        the project or work at some level.

        The OIG notes that Region 4 incorrectly cited OMB Circular A-187. OMB Circular
        A-133 is the correct citation. As discussed in the draft report, the OIG used Section
        210 (a)-(d) of OMB Circular A-133 to show that TDOT’s awards are indicative of a
        vendor contractor and not a subgrantee.


   4.	 Based on discussions with TDOT, each of the sub-recipients who were awarded funds
       for “developing TSE parking spaces that best suit their location and clientele” meet the
       criteria noted in Section 210(b) of Circular A-133 regarding sub-recipients. In our
       discussions with TDOT they stated that the grantees: conducted all procurement actions
       for services (e.g., electrical, concrete work, etc.); supervised all construction on the sites;
       the grantees were responsible for taking pictures of the work being done and providing
       site pictures to TDOT; were responsible for submittal of all invoices for equipment
       purchased, for site preparation work completed, etc.; and were responsible for providing
       periodic reports regarding the project to TDOT.



13-R-0321                                                                                           40
      TDOT indicated that they only traveled to the sites periodically to observe the progress of
      the projects, and only provided help to the grantees on certain activities as requested (e.g.,
      preparing for solicitation of competitive bids for work to be performed on-site), but they
      did not do the work for them and did not issue the solicitations, etc.. In addition, the
      TDOT sub-recipients were also responsible for determining compliance with the Davis-
      Bacon wage rate determinations including submission of copies of payrolls by all
      subcontractors and were responsible for submitting monthly online wage reports to
      TDOT. The sub-recipient roles being performed by each of the TDOT grantees (and also
      required by the “TDOT Grant Contract” signed by each of the sub-recipients) provide
      clear evidence that TDOT was in an active oversight role as compared to one where
      TDOT was actually conducting the project which would meet the criteria of public
      works.

        OIG Response 3: The OIG disagrees and continues to maintain that TDOT, as the
        recipient of the grant award, conducted the project.


   5.	 In order to meet the obvious intent associated with meeting the definition of “Public
       building and public work” listed in 2 CFR Section 176.140, one would need to consider
       what the purpose of the TDOT awards were for, targeted to “companies with truck stops
       in Tennessee and/or TSE companies working in partnership with a Tennessee truck stop”
       (language pulled from TDOT TSE Request for Applications (RFA)). If TDOT were
       “conducting the project”, the normal mode would be for TDOT to put out an RFA that
       included very detailed bid specifications, performance bond requirements, etc. and would
       establish a principal purpose of acquiring property or services for direct agency benefit or
       use (on behalf of the welfare of the citizens of Tennessee) as part of an acquisition
       (procurement action). In that case, TDOT would retain ownership of the public work,
       which in this case did not occur. Ownership of the TSE parking spaces is vested with the
       grantees. Pursuant to OMB’s Recovery Act web-site, the lack of ownership of the
       property and equipment negates the applicability of the Buy American provision. See
       http://www.whitehouse.gov/omb/recovery_faqs#g7 (General Recovery Act FAQ –
       Question 7), which provides “if the facility is/will be privately-owned, then the ARRA
       Buy America provision will not apply to it, because it will not be a ‘public building or
       public work.’’’

        OIG Response 4: The EPA’s DERA program determination regarding Section 23
        states that projects “… are considered to be public works when a governmental entity
        is conducting the project.” The determination does not address ownership as the
        criteria for making the Buy American determination.

        The OIG does not consider the OMB’s FAQs example included above to be
        applicable to the situation in question. The example relates to a seemingly unique
        scenario involving a state college or university.

   6.	 Further, in an assistance mode, as defined by the Federal Grant and Cooperative



13-R-0321                                                                                        41
      Agreement Act of 1977 and highlighted in EPA’s “Policy for distinguishing Between
      Assistance and Acquisition” (GPI-94-04), TDOT’s purpose would need to be one of
      transferring something of value (e.g., money) to an eligible entity to accomplish a public
      purpose of support or stimulation authorized by statute. TDOT’s role in this case is
      clearly one of “assistance” and not acquisition (procurement), and therefore does not
      meet the obvious intent associated with being “a public building of, and a public work of,
      a government entity”.

        OIG Response 5: See OIG Response 4.


   7.	 Regarding Finding 2, we do not agree with the finding based on our discussions with
       TDOT and the information that they had at the time of reporting. However, we have had
       discussions with TDOT regarding the recommendations included in Finding 2, and offer
       the following comments:

            a.	 We believe the overall objectives of the cooperative agreement have been met
                including the installation and operation of a network of 117 electrified parking
                spaces across Tennessee with some level of demonstrated emission reductions and
                fuel savings based on limited usage data provided to TDOT from the truck stops
                in Tennessee. It is expected that over time the usage of the TSE equipment will
                increase as people become more familiar with the benefits of using the equipment
                and the availability of the TSE equipment.

            b.	 The assumptions used by TDOT to calculate and report out on emissions
                reductions and estimated reductions in fuel usage using the diesel emissions
                quantifier were based on 2000 hours of usage instead of the default setting of
                2400 hours. This lower usage estimation was in an effort to utilize a more
                conservative approach to reporting given that they did not have any reliable
                information to predict actual usage (very little to no usage data was available to
                them at the time of the report).

            c.	 Whereas it is understandable that it will likely take some time to maximize usage
                of the electrified parking spaces across Tennessee, TDOT indicated they are
                willing to develop an addendum to their report which provides project results
                based on actual usage data that they now have for the most recent quarter. The
                quarterly data will be used to extrapolate a project usage estimate for an entire
                year which will be plugged into the diesel emission quantifier to generate
                estimated emissions reduction information. This addendum report will be added
                to the EPA grant file and provided to your office.

        OIG Response 6: The OIG acknowledges comments from Region 4 and commends
        the efforts already taken to address the issue. The OIG looks forward to the receipt
        and evaluation of updated emission information.
         



13-R-0321                                                                                            42
                                                                       Appendix D
                                     Distribution
Regional Administrator, Region 4 

Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Director, Grants and Interagency Agreements Management Division,
        Office of Administrator and Resources Management
Deputy Regional Administrator, Region 4 

Office of External Affairs, Region 4 

Director, Air, Pesticides, and Toxic Management Division, Region 4 

Chief, Indoor Environments and Grants Section, Region 4 

Audit Follow-Up Coordinator, Region 4 

Manager, Policy Office Long Range Planning Division,
        Tennessee Department of Transportation




13-R-0321                                                                      43
